2

NO. 18a865

4
5

II

S2319

3

IN THE
SUPREME COURT OF THE UNITED STAF-

HE CLERK

6
7
8

VERONICA W. OGUNSULA
Petitioner

9
10
11
12

vs.
STAFFING NOW, INC.
Respondent

13
14
15

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE DISTRICT OF COLUMBIA

16
17
18
19

APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR WRIT OF CERTIORARI

20
21
22
23

TO THE CHIEF JUSTICE
JOHN G. ROBERTS, JR.

24
25

APRIL 16, 2019
Veronica W. Ogunsula, Pro S
Largo, Marylan
240-486-142
Nona. 0 gunsula@gmail.goj

26
27
28

V ED

APR 17 2019
APPLICATION FOR 2ND EXTENSION OF TIME TO FILE 1
-

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20774
1 Nona.Ogunsu1a@gmail.com
2
3

To the Honorable John G. Roberts, Jr., Chief Justice of the United
States Supreme Court and Circuit Justice for the District of Columbia Circuit:
The Petitioner, Veronica W. Ogunsula, a United States citizen and

6

resident of the State of Maryland, proceeding Pro Se, respectfully submits a second

7

8

Motion to extend the time within which she may file the Petition For Writ of
Certiorari to review the judgment of the U.S. Court of Appeals for the District of

10
11

Columbia Circuit affirming the U.S. District Court's Judgment. The U.S. Appeals
Court's Judgment was entered on the 10th day of August and the Appellant Petition

12

13

for Rehearing was denied on the 3rd day of December 2018. A copy of the opinion of

14

the Court of Appeals is attached as well as the Orders denying the Rehearing and

15

Rehearing En Banc. The Case No. 17-7150 is captioned:

16

Veronica Ogunsula, Plaintiff-Appellant

17
18

19

vs.

Staffing Now, Inc., Defendant-Appellee

20
21

The Petitioner requests that the time to file be extended from the 18th day of April,

22
23
24

2019, for a period of 14 days up to and including May 2, 2019. Total time requested
is 59 days. Jurisdiction of this Court is invoked under 28 U.S.C. ยง 1254.

25
26
27
28

APPLICATION FOR 2ND EXTENSION OF TIME TO FILE -2

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20774

Nona.Ogunsula@gmail.com
2

I.

3
4
5
6

This case is a federal employment discrimination case which involves
allegations of discrimination based on race, national origin, and age under Title VII
of the 1964 Civil Rights Act and Age Discrimination in Employment Act by the

7
8
9
10
11

Respondent, Staffing Now, Inc. The U.S District Court for the District of Columbia
ruled in favor of the respondent's Motion for Summary Judgment which prompted
an appeal to the United States Court of Appeals for the District of Columbia as
referenced above.

12
13

It is a fact that the hiring processes, practices and the nature of the

14

temporary staffing workforce differ from the hiring processes found in other parts

15

the staffing industry. When McDonnell Douglas vs Green was decided by the

16

Supreme Court in 1973, the workforce was significantly different than it is today.

17
18

Roughly, 88 million or 61% of the total 146 million individuals who were living in

19

America, age 16 and over, comprised the civilian workforce.1 The overwhelming

20

majority of these individuals were American citizens. Women were 39% of the

21

workforce and men were 61%.2 Nine million or 10% of the workforce was African

22

23

Americans and 3.7 million or 4% were Hispanics.3

24
25
26
27
28

1

Labor Force Statistics from the Current Population Survey, Civilian noninstitutional population,
U.S. Department of Labor and Statistics, bls.gov.
2

Ibid.

Ibid.

APPLICATION FOR 2ND EXTENSION OF TIME TO FILE -3

Veronica W Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20774
1 Nona.Ogunsu1a@gmail.com

3

The overall unemployment rate was 5.2 The unemployment rate for
whites was 4.3% as compared to 9.4% for African Americans, a rate that is double
that of whites and nearly twice the overall unemployment rate. The Hispanic

6

unemployment rate was 7.9. It should be noted here that while the unemployment

7

8
9
10
11

rate today is 3.9%, the lowest it's ever been, the rate of unemployed African
Americans is 6.7% as compared to 3.5% for whites. For the last 50 years, this trend
where the rate for African Americans is twice that of whites has continued.
Today, three million of the 156 million individuals employed in the

12

13

U.S. are temporary workers. Ten percent of the entire workforce may be employed

14

as a temporary at some point during the year. Women are 76.5 million of the

15

civilian workforce. African Americans are 20.3 million; Hispanics are 29 million;

16

and Asians are 10.4 million.

17

18

As discerning as the Supreme Court was in deciding the McDonnell

19

Douglas vs Green case which provided an enduring precedent and comprehensive

20

framework that has lasted over 45 years, it could not have anticipated the

21

tremendous growth that has occurred in the temporary staffing industry and the

22

23
24
25

26

characteristics, both positive and negative, of this industry. The Petitioner will
argue that the McDonnell Douglas prongs and framework should be reconsidered in
light of the nuances of the temporary staffing agency that benefit the employers but
also provide an opportunity for increased, sometimes, brazen discrimination for

27

28

employees of agencies and company clients.

APPLICATION FOR 2ND EXTENSION OF TIME TO FILE 4
-

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20774
1 Nona.Ogunsula@gmail.com
2

As previously raised in the prior Motion for an Extension of Time, the
Petition to be filed will also request this Court review a Motion For Judicial Recusal
that was denied by a Special Panel at the U.S. Court of Appeals for the District of
6

Columbia.

7

8

The Petitioner is requesting an additional extension of time of 14 days
with which to file a Petition for Writ of Certiorari. On Monday, 4/15/19, she

10
11

encountered computer difficulties where the hard drive of the computer she had
been using for research and to connect to the internet would not allow her to logon

12

13

to Windows. In an effort to troubleshoot the computer's failure, she discovered that

14

changes had been made to the operating system's registry to prevent access to the

15

hard drive's files and logon to the operating system. The incident that caused this

16

failure occurred over the weekend and Ms. Ogunsula does not believe that the

17

18

incident is random. The Petitioner believes that the timing of this incident is

19

suspicious in that it occurred the week that the Petitioner's Writ is due to this

20

Court. Further it follows a pattern of similar incidents that occurred most recently

21

in December 2018 after the Petitioner made known through a Court filing related tc

22

23
24
25

26

the Mandate at the U.S. Appeals Court's for the District of Columbia that she
intended to-file a Petition of Writ to the Supreme Court in this case.
The Petitioner notes the Supreme Court's rules and recognizes that
this request is made less than 10 days before the deadline for filing the Petition for

27

28

Writ of Certiorari, however the 4/15 computer incident could not have been

APPLICATION FOR 2ND EXTENSION OF TIME TO FILE -5

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20774
I Nona.Ogunsula@gmail.com
2
3

anticipated. After the December incident, Petitioner had taken the precaution of

4

backing up her files and using a second "internet only" computer to prevent losing

5

all data related to this case. It is this computer that failed.

6

(A) No prejudice will result to any party from the requested

7
8
9
10
11

extension.
(B) The Appellee's Counsel was contacted on April 16th prior to
submitting this Motion however the Petitioner was unable to ascertain their
support or opposition to this Application For An Extension To File.

12
13

Wherefore, petitioner respectfully requests that an order be issued

14

extending the time for filing a Petition For Writ of Certiorari up to and including

15

May 2, 2019. Further, the petitioner also again prays this Court extend to her the

16

capability to file her documents electronically. This was a privilege extended to the

17
18

Petitioner in both the District Court and Appeals Court.

19
20

Dated this 16th day of April 2019

21
22
23
24

Respectfully submitted,

25
26
27
28

Veronica W

APPLICATION FOR 2ND EXTENSION OF TIME TO FILE -6

ula, Pro Se

